           U.S. Department of
                                                             Memorandum
           Transportation
           Office of the Secretary
           of Transportation
           Office of Inspector General


Subject:   INFORMATION: OIG Comments on                                         Date:    June 23, 2003
           Lake Express LLC Title XI Loan
           Guarantee Application

  From:    Kenneth M. Mead                                                   Reply to
                                                                             Attn. of:   J-1
           Inspector General

    To:    Capt. William G. Schubert
           Administrator, Maritime Administration

           On April 16, 2003, Congress appropriated $25 million to the Maritime Administration
           (MARAD) for new Title XI loan guarantees1. As part of the Appropriation, the
           Office of Inspector General (OIG) was required to certify that the recommendations
           set forth in our March 27, 2003 report had been implemented before MARAD could
           access those funds. Although this certification specifically applied to the newly
           appropriated funds, the Secretary decided that it would be prudent for MARAD to
           adhere to the OIG’s recommendations on any new commitments, even those funded
           by prior year appropriations.

           In December 2002, Lake Express LLC applied for a Title XI loan guarantee to build a
           high-speed ferry to provide service on Lake Michigan between Milwaukee,
           Wisconsin and Muskegon, Michigan. MARAD had completed its analysis of the
           application in April 2003 and presented it to you for final approval. Before taking this
           final step, the Secretary suggested that we review both the application and MARAD’s
           processing of it to ensure that our recommendations had been incorporated. We were
           not asked to nor did we opine on the merits of the application.

           Of the five recommendations set forth in our March report, only two apply to the pre-
           approval stage of the loan guarantee, and thus the Lake Express application. The first
           recommends a rigorous analysis of the risks from modifying any loan approval
           criteria and the imposition of compensating provisions on the loan guarantee to
           mitigate those risks. In this instance, there were no material modifications to the loan
           guarantee approval criteria that would require MARAD to impose any compensating
           provisions on Lake Express.

           1
            Making Emergency Wartime Supplemental Appropriations for the Fiscal Year Ending September 30,
           2003
           Control No. 2003-131
                                                                                 2
The second recommendation is for MARAD to formally establish an external review
process as a check on MARAD’s internal loan application review and as assistance in
crafting loan conditions and covenants. We are currently working with MARAD to
finalize the procedures for establishing this process which will ultimately allow the
independent reviews to proceed simultaneously with MARAD’s internal review
process.

MARAD retained an independent financial analyst to review Lake Express’ business
plan and capitalization. MARAD also engaged a market analyst to review the
applicant’s market research and demand forecast. Given the narrow window in
which these analyses needed to be performed, their scope was more limited than we
would anticipate from future independent analyses. However, given the
circumstances, we believe that these reviews were consistent with the underlying
intent of the recommendation.

The financial analysis resulted in a finding that Lake Express represents a viable
business proposition and that there is a reasonable probability of repayment of
financing according to its terms should MARAD decide to provide a Title XI loan
guarantee. The analyst recommended that several steps be taken to further protect
the Government’s interests and MARAD has agreed to implement these changes.

The market analysis raised some concerns about the underlying market research,
although it is not clear whether these issues would materially affect the financial
projections of the venture. Given these concerns, however, if MARAD decides to
approve the Lake Express Title XI loan guarantee application, it would be prudent
for MARAD to limit the Government’s risk by establishing a firm limit on the
guarantee amount. MARAD will do so by including explicit language to this effect
in the commitment letter.

Lake Express has applied for a loan guarantee in the amount of $14.5 million and its
owners have committed to invest $8.5 million in equity. That equity will be used
both for boat construction ($4.4 million), and initial start-up costs and working
capital ($4.1 million). If the cost of construction increases beyond the currently
contemplated total vessel cost of $18.9 million ($14.5 million + $4.4 million), the
investors in and owners of Lake Express should be required to provide new equity
funds to cover the increases with no decrease in the $4.1 million in pledged start-up
funds/working capital or increase to the $14.5 million loan guarantee. The applicant
must seek sources of funds to cover any shortfalls from sources other than the
Government.

cc:     The Secretary
        Deputy Secretary
        Chief of Staff


Control No. 2003-131
